                                                                      O FFICE OF A UDIT S ERVICES , R EGION I
                                                                                    JFK F EDERAL B UILDING
                                                                     15 N EW S UDBURY S TREET, R OOM 2425
                                                                                       B OSTON , MA 02203

June 25, 2012

Report Number: A-01-12-00003

JudyAnn Bigby, MD
Secretary
Executive Office of Health and Human Services
One Ashburton Place, 11th Floor
Boston, MA 02108

Dear Dr. Bigby:

Enclosed is the U.S. Department of Health and Human Services, Office of Inspector General (OIG), final
report entitled Massachusetts Medicaid Payments to Alliance Health of Massachusetts, Inc., Did Not
Always Comply With Federal and State Requirements. We will forward a copy of this report to the HHS
action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported. We
request that you respond to this official within 30 days from the date of this letter. Your response should
present any comments or additional information that you believe may have a bearing on the final
determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly available
reports on the OIG Web site. Accordingly, this report will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or contact
Curtis Roy, Audit Manager, at (617) 565-9281 or through email at Curtis.Roy@oig.hhs.gov. Please refer
to report number A-01-12-00003 in all correspondence.

                                                  Sincerely,



                                                  /Michael J. Armstrong/
                                                  Regional Inspector General
                                                    for Audit Services


Enclosure
Page 2 – Dr. JudyAnn Bigby

Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




   MASSACHUSETTS MEDICAID
    PAYMENTS TO ALLIANCE
  HEALTH OF MASSACHUSETTS,
 INC., DID NOT ALWAYS COMPLY
   WITH FEDERAL AND STATE
         REQUIREMENTS




                       Daniel R. Levinson
                        Inspector General

                           June 2012
                         A-01-12-00003
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Massachusetts Executive Office of Health and Human Services, Office of Medicaid (State
agency), is responsible for administering MassHealth, the Massachusetts Medicaid program, in
compliance with Federal and State statutes and administrative policies. The State agency
reimburses nursing homes based on an established per diem rate for services provided to
Medicaid beneficiaries. Pursuant to Medicaid requirements, the State agency must use certain
additional resources that a beneficiary has, including Social Security payments, to reduce its
Medicaid payments to nursing homes. The State agency determines the amount of a
beneficiary’s contribution during the financial eligibility process and enters this amount into its
computer system. The beneficiary’s contribution is remitted to the nursing home each month.

When the State agency reimburses the nursing home and does not reduce the Medicaid per diem
payment by the amount of the beneficiary’s contribution, the nursing home could receive
overpayments. Pursuant to Medicaid requirements, the nursing home must return any
overpayments to the State Medicaid program, which in turn is required to refund the Federal
share to the Centers for Medicare & Medicaid Services (CMS) on its Form CMS-64, Quarterly
Statement of Expenditures for the Medical Assistance Program.

Alliance Health of Massachusetts, Inc. (Alliance), is a Massachusetts provider with three
Medicare and Medicaid certified nursing homes located in Lynn, Marblehead, and West
Peabody, Massachusetts. The nursing homes are Abbott House, Devereux House, and
Rosewood Nursing and Rehabilitation Center. BaneCare Management, LLC, located in Salem,
Massachusetts, manages the nursing homes owned by Alliance.

OBJECTIVE

Our objective was to determine whether the State agency made Medicaid payments to Alliance
in accordance with Federal and State requirements from January 2006 through December 2011.

SUMMARY OF FINDING

The State agency generally made Medicaid payments in accordance with Federal and State
requirements to Alliance. However, the State agency did not always adjust its Medicaid per
diem payments to Alliance by the amount of beneficiaries’ cost-of-care contributions from
resources, such as Social Security and pensions. As a result, the State agency’s Federal claim
was overstated by a total of $15,606 ($8,860 Federal share). We attributed the incorrect
Medicaid payments to clerical and billing errors.




                                                  i
RECOMMENDATIONS

We recommend that the State agency:

   •   collect overpayments totaling $15,606 from Alliance and refund the Federal share of
       $8,860 and

   •   continue its efforts to ensure that Medicaid overpayments to nursing homes are identified,
       collected, and refunded.

ALLIANCE HEALTH OF MASSACHUSETTS, INC., COMMENTS

In written comments on our draft report, Alliance generally agreed with our finding. Alliance’s
comments are included in their entirety as Appendix B.

STATE AGENCY COMMENTS

In written comments on our draft report, the State Agency agreed with our finding. The State
Agency’s comments are included in their entirety as Appendix C.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                         Page

INTRODUCTION..........................................................................................................1

          BACKGROUND .................................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................1
               Objective ..................................................................................................1
               Scope ........................................................................................................1
               Methodology ............................................................................................2

FINDING AND RECOMMENDATIONS ...................................................................2

          FEDERAL AND STATE MEDICAID REQUIREMENTS................................2

          UNADJUSTED NURSING HOME PAYMENTS .............................................3

          AMOUNT OWED TO THE FEDERAL GOVERNMENT ................................3

          CAUSE OF UNREPORTED OVERPAYMENTS .............................................3

          RECOMMENDATIONS .....................................................................................3

          ALLIANCE HEALTH OF MASSACHUSETTS, INC., COMMENTS .............4

          STATE AGENCY COMMENTS ........................................................................4

APPENDIXES

          A: MEDICAID OVERPAYMENTS TO ALLIANCE HEALTH OF
             MASSACHUSETTS, INC., BY CALENDER YEAR

          B: ALLIANCE HEALTH OF MASSACHUSETTS, INC., COMMENTS

          C: STATE AGENCY COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. The
Massachusetts Executive Office of Health and Human Services, Office of Medicaid (State
agency), is responsible for administering MassHealth, the Massachusetts Medicaid program, in
compliance with Federal and State statutes and administrative policies.

The State agency reimburses nursing homes based on an established per diem rate for services
provided to Medicaid beneficiaries. Pursuant to Medicaid requirements, the State agency must
use certain additional resources that a beneficiary has, including Social Security payments, to
reduce its Medicaid payments to nursing homes. The State agency determines the amount of the
beneficiary’s contribution to the cost of care during the financial eligibility process and enters
this amount into its computer system. The beneficiary’s cost-of-care contribution is remitted to
the nursing home each month.

When the State agency does not reduce the Medicaid per diem payment to the nursing home by
the amount of the beneficiary’s contribution, the nursing home could receive overpayments.
Pursuant to Medicaid requirements, the nursing home must return the overpayments to the State
Medicaid program, which in turn is required to refund the Federal share to CMS on its Form
CMS-64, Quarterly Statement of Expenditures for the Medical Assistance Program.

Alliance Health of Massachusetts, Inc. (Alliance), is a Massachusetts provider with three
Medicare and Medicaid certified nursing homes located in Lynn, Marblehead, and West
Peabody, Massachusetts. The nursing homes are Abbott House, Devereux House, and
Rosewood Nursing and Rehabilitation Center. BaneCare Management, LLC, located in Salem,
Massachusetts, manages the homes owned by Alliance.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency made Medicaid payments to Alliance
in accordance with Federal and State requirements from January 2006 through December 2011.

Scope

For the period from January 2006 through December 2011, we reviewed Medicaid accounts that
were at risk for having overpayments. We limited our review of internal controls to obtaining an
understanding of Alliance’s procedures for reviewing accounts and reporting overpayments to
the Medicaid program.

                                                1
We performed fieldwork from February through March 2012 at BaneCare Management, LLC, in
Salem, Massachusetts; the State agency in Boston, Massachusetts; and the CMS Regional Office
in Boston, Massachusetts.

Methodology

To accomplish our objective, we:

   •   reviewed State and Federal regulations pertaining to overpayments;

   •   worked with Alliance officials to identify credit balances in the accounting records that
       were potentially overpayments;

   •   reviewed patient accounts to determine whether overpayments had occurred;

   •   determined the cause of the overpayments; and

   •   coordinated our audit with officials from the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                          FINDING AND RECOMMENDATIONS

The State agency generally made Medicaid payments in accordance with Federal and State
requirements to Alliance. However, the State agency did not always adjust its Medicaid per
diem payments to Alliance by the amount of beneficiaries’ cost-of-care contributions from
resources, such as Social Security and pensions. As a result, the State agency’s Federal claim
was overstated by a total of $15,606 ($8,860 Federal share). We attributed the incorrect
Medicaid payments to clerical and billing errors.

FEDERAL AND STATE MEDICAID REQUIREMENTS

Pursuant to 42 CFR § 435, the State agency must reduce its payment to an institution for services
provided to a Medicaid-eligible individual by the amount that remains after adjusting the
individual’s total income for a personal needs allowance and other considerations that the
regulation specifies. MassHealth regulations at 450.316 note that all resources available to a
member, including but not limited to health and casualty insurance, must be coordinated and
applied to the cost of medical services provided by MassHealth.




                                                2
UNADJUSTED NURSING HOME PAYMENTS

The State made 21 overpayments to the 3 Alliance nursing homes from January 2006 through
December 2011 (see Appendix A). Specifically, the State agency did not adjust its Medicaid
payments to Alliance by the amount of beneficiaries’ cost-of-care contributions from resources,
such as Social Security and pensions.

                          An Example of a Medicaid Overpayment

   Mrs. D was a patient at Alliance nursing home during August 2009. Based on her other
   resources, the State agency calculated Mrs. D’s cost-of-care contribution to be $800 a
   month. The State agency determined that the nursing home was entitled to a monthly
   payment of $5,600. Because of Mrs. D’s $800 cost-of-care contribution, the State agency
   was responsible for only $4,800 of the $5,600 nursing home costs. However, the nursing
   home received a total of $6,400 ($5,600 from the State agency and $800 from Mrs. D).
   This error occurred because the State agency’s computer system did not adjust the payment
   amount by Mrs. D’s cost-of-care contribution. The nursing home, therefore, received an
   overpayment of $800 ($6,400 minus $5,600) for Mrs. D’s care for the month of August.


AMOUNT OWED TO THE FEDERAL GOVERNMENT

As a result of the overpayments, the State agency’s Federal claim for Medicaid payments made
to Alliance for the period from January 2006 through December 2011 was overstated by a total
of $15,606 ($8,860 Federal share).

CAUSE OF UNREPORTED OVERPAYMENTS

We attributed the 21 incorrectly reimbursed Medicaid payments to clerical and billing errors.
State agency officials informed us that they have recently implemented a new computer system
that will reduce future clerical and billing errors.

RECOMMENDATIONS

We recommend that the State agency:

   •   collect overpayments totaling $15,606 from Alliance and refund the Federal share of
       $8,860 and

   •   continue its efforts to ensure that Medicaid overpayments to nursing homes are identified,
       collected, and refunded.




                                               3
ALLIANCE HEALTH OF MASSACHUSETTS, INC., COMMENTS

In written comments on our draft report, Alliance generally agreed with our finding. Alliance’s
comments are included in their entirety as Appendix B.

STATE AGENCY COMMENTS

In written comments on our draft report, the State Agency agreed with our finding. The State
Agency’s comments are included in their entirety as Appendix C.




                                               4
APPENDIXES
APPENDIX A: MEDICAID OVERPAYMENTS TO ALLIANCE
HEALTH OF MASSACHUSETTS, INC., BY CALENDAR YEAR


     Calendar    Number of         Total
      Year      Overpayments   Overpayments

       2006          2            $1,356

       2008          2                46

       2009          5             1,890

        2010         1             7,228

        2011        11             5,086

      TOTAL         21           $15,606
                                                                                                                                                                                                                    Page 1 of 2
                          APPENDIX B: ALLIANCE HEALTH OF MASSACHUSETTS, INC. COMMENTS 





www.banecare.cOtll
info@banccare.com

                                                             May 8, 2012
ABDon HOOSE
THE SWAMPSCO'ITWING
                                                             Office of Inspector General
28 Essex Sr.
                                                             Otlice of Audit Services, Region I
Lynn !viA 01902                                              15 New Sudbury Street, Room 2425
781 -595-')500                                               Boston, MA 02293
Fax: 7Pl-'595-j62'i
                                                             Report Number:                                    A-Ol - J 2-00003

                                                             Alliance Health of Massachusetts, Inc was subjected to an accounts
DEVEREUX HOllSE
                                                             receivable audit f()r the years January 1,2006 through December31 ,
THE MOSAIC               PROGRAM
                                                             2011. The conducting agency for the audit was the U.S. Department of
:39 L<lfayt'trt.' St..
Marbkhc~ad ,       \1A 0191')
                                                             Health and Human Services, Office of Inspector (OlG). An Internal
7816316 J20
                                                             Control Test was conducted to evaluate the provider's control over
Fax: 7RI-6.'\ 1-6122                                         financial concerns. In addition to the accounts_certain policies and
                                                             procedures were reviewed to determine adherence to State and Federal
                                                             Guidelines .

ROSEWOOD                                                     The amount due to the Commonwealth detailed under 20 lOin the
N1J]~SIN(;   & REHAB        CENUR
                                                             amount of $7,227.68 represents 100% of the amount cited for this
22 Johnson Sr.
                                                             payment year; it is due to Medicare and Medicaid paying the same
W. Peabody Mil. 019(10
97S-')3')-8700
                                                             claim.
Fax: 978-5.35-2:$00
                                                             As an examination of the data will indicate the number of
                                                             Overpayments to be directly related to the year in which the payment
                                                             was received ranged ti'0l11 zero (0) to 11 in 2011. This provider will
                                                             maintain that the audit of2011 is too early having been completed 2-3
                                                             months ago . There are too many issues with the accounts to justify an
                                                             adjustment to the payment: eligibility for the MCD benefit, effective
                                                             date of eligibility, the per day rate to be charged, the resource amount,
                                                             etc. There could be credits on the accounts today that will not be there in
                                                             the future and we may end up incurring bad debt for payments
                                                             improperly made to the Commonwealth.

                                                             Most of the credits due to the Commonwealth are due to MMQ audits
                                                             adjusting the per day rate charged for services months following their .
                                                             discharge. Though the provider may send in a void and payment
                                                             request, few are willing to risk $3,000 to $4,000 for the $150 to $300.00



                                                                                                                                                                                                                              A
                           (:1" m.\1. ,\:[\_, At.iCMU\T Un !oj' 121 Loring Ave. >Uilt' H20' S"I<'Ill, ;\"1/\ OJ \P() • ()7H "'1')-h'i05 • Fa \:                                                          'F» 74S-H';Oj       ~!JlI1
                             ;;. 1:1>( (lre   \Ir('{(z,(~(   ljJ('iI, /.1.(   t;l:';/U(fS   h(JiJ!('~ r,:i }h,d hI' Iii!!,!,!\"   Nt',lffh I I -If{'~.'''[{ ;~/"   ./.   }if(.:f ;:,'1 'Ill   -i,'n;;, ,,!'r;d/U -fiIi{;l'
                                                                      Page 2 of 2




credit. We will wait and incur penalty and interest the result of an AIR
audit.

In general we agree with the findings of the OIG. The identified amoun t
                                                                     y
of $15,60 6 is very small given the time period covere d from Januar
                                                                   that
2006 thru Decem ber 31, 2011. The review of our internal contro ls
                                               ions was  good as was  the
govern adhere nce to State and Federal regulat
review of select policies and procedures.

Yours tr   y,         .//
f/l~r'-' ~~f'Z",'-
George F. Hayde n 

Direct or of Operat ions 

Bane Care Manag ement 

                                  APPENDIX C: STATE AGENCY COMMENTS 

          ,~
                                   The Commonwealth of Massachusetts                                        MassHeafth
 ~,!
 I~!
                      if!\~\   Executive Office of Health and Human Services
 ,~                   .::J                    Office of Medicaid 

  ~A           ~
       \~~.~~,!""o/
                                            One Ashburton Place 

                                             Boston, MA 02108
 DEVAL L. PATRICK                                                                                           JUDYANN BIGBY, M .D.
     Governor                                                                                                    Secretary

TIMOTHY P. MURRAY                                                                                           JULlAN J. HARRIS , M.D.
 Lieutenant. Governor                                                                                           Medicaid Director



        June 7,2012

        Michael J. Armstrong 

        Regional Inspector General, Audit Services 

        HHS/OIG/OAS 

        Region I 

        JFI( Federal Building 

        Boston, MA 02203 



        RE : Audit Report No: A-01-12-00003


         Dear Mr. Armstrong,

         Thank you for the opportunity to review and comment on Draft Audit Report No: A-01 -12-00003, 

         Review of Medicaid Payments at Alliance Health of Massachusetts , Inc. for the period January 2006 

         through December 2011. 


        Our responses to the report's specific recommendations are as follows:
        Recommendation:

        1) Collect overpayments totaling $15,606 from Alliance and refund $8,860, the Federal share of these payments,
        to CMS on the next quarterly CMS-64.

        Response: We are in agreement with this finding and will follow the procedures described in state Medicaid 

        regulations at 130 CMR 450 .237 to collect the overpayments from the provider. Under 130 CMR 450 .237, the 

        provider has a due process right to contest the overpayment, including the right to request an adjudicatory 

        hearing and judicial review. 



        Recommendation:

        2) Continue agency efforts to ensure that Medicaid overpayments to nursing hom es continue to be identified , 

        collected and refunded . 


        Response: MassHealth is in agreement with this recommendation and wil l ensure that periodic reviews and 

        audits continue to be conducted to identify, collect and refund overpayments 



        Sincerely,
